LEGAL PRINTERS

LLC

202-747-2400
202-449-9565 Fax
LegalPrinters.com

5614 Connecticut Avenue, NW #307
Washington, DC 20015

March 19, 2020
Clerk
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20002
RE 19-874:

WILLIAM ALAN PESNELL AND CHRISTOPHER HOLDER, THROUGH HIS
CURATOR, GARY HOLDER V. JILL SESSIONS, CLERK OF COURT, ET AL.

Dear Sir or Madam:
As required by Supreme Court Rule 33.1(h), I certify that the Reply to Opposition
referenced above contains 2,908 words, excluding the parts of the document that are
exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Sincerely,
Jack Suber, Esq.
Principal

Sworn and subscribed before me this 19th day of March 2020.

